No.

IN THE SUPREME COURT OF THE UNITED STATES

GILBERTO AYUN-FLORES,
Petitioner,
-y-
UNITED STATES OF AMERICA,

Respondent.

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Pursuant to Title 18 United States Code ยง3006A(d)(6) and Rule 39 of this
Court, Petitioner Gilberto Ayun-Flores, asks leave to file the attached Petition for
Writ of Certiorarito the United States Court of Appeals for the Ninth Circuit without
prepayment of fees or costs and to proceed in forma pauperis.

Petitioner is represented by counsel appointed pursuant to Title 18 United
States Code ยง3006A in the district court and on appeal to the Ninth Circuit Court of
Appeals.

Respectfully subpAtted,
Dated: July 2, 2020 MICHAE MARKS
Federal Defenders of San Diego, Inc.
225 Broadway, Suite 900
San Diego, CA 92101-5008

Telephone: (619) 234-8467
Attorneys for Petitioner
